                                   May 21, 2003

                                   ANITA J. BIZZOTTO
                                   SENIOR VICE PRESIDENT, CHIEF MARKETING
                                    OFFICER

                                   CHARLES E. BRAVO
                                   SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND
                                    ADDRESS QUALITY

                                   HENRY A. PANKEY
                                   VICE PRESIDENT, DELIVERY AND RETAIL

                                   SUBJECT: Management Advisory – Postal Service’s
                                            Procedures to Validate Change-of-Address
                                            Orders (Report Number OE-MA-03-005)

                                   This management advisory report presents the results
                                   of the Office of Inspector General’s (OIG) review of
                                   the change-of-address process (Project Number
                                   02BG010EM002). We initiated this review during our
                                   audit of the MoversGuide.com1 initiative when we identified
                                   issues concerning change-of-address policy. The objective
                                   of our review was to determine the adequacy of the process
                                   used to validate change-of-address orders.

    Results in Brief               We determined the process used to validate change-of-
                                   address orders was adequate. The process helped the
                                   Postal Service detect fraudulent orders and prevent
                                   customers’ mail from being unlawfully diverted.

                                   We also assessed, as possible alternative or supplemental
                                   methods, whether the Postal Service should require
                                   customers to present identification at a post office



1
 MoversGuide.com is an Internet-based service that allows consumers to change their addresses with the Postal
Service electronically or to print and submit a hardcopy change-of-address order to the Postal Service, and to access
a variety of move-related products and services.




                                              Restricted Information
Postal Service’s Procedures to                                                          OE-MA-03-005
 Validate Change-of-Address Orders



                                   when submitting change-of-address orders, and whether it
                                   could use a potential “Change-of-Address by Phone”
                                   service to help further prevent change-of-address fraud.

                                   We determined while in-person identity verification
                                   requirements could deter potential criminals from submitting
                                   fraudulent orders, it would adversely impact customers and
                                   could prove to be too costly. For example, millions of
                                   customers would be required to travel to post offices and
                                   incur a wait to submit their orders, and the Postal Service
                                   would incur increased operating costs to serve the
                                   additional customers. We also concluded if the Postal
                                   Service assesses a “Change-of-Address by Phone” service,
                                   it might want to explore controls to prevent the Postal
                                   Service from accepting fraudulent change-of-address orders
                                   through this service.

                                   Management agreed with our conclusions and its comments
                                   are responsive to the information presented in this report.
                                   Management’s comments, in their entirety, are included in
                                   the appendix of this report.

    Background                     Approximately 44 million change-of-address orders are
                                   submitted per year. Customers can submit a change-of-
                                   address order at a post office, via the mail, through their
                                   mail carriers, or online. In addition, third parties can submit
                                   an order on behalf of a customer. The order requires the
                                   customer’s signature or the signature of the customer’s
                                   representative. There is no requirement that a customer
                                   interface with a Postal Service employee to submit a
                                   change-of-address order.

                                   Prior to 1996, the Postal Service did not have procedures to
                                   help determine when change-of-address orders were valid.
                                   During 1996, 60 Minutes2 reported someone fraudulently
                                   changed a physician’s address. The physician learned the
                                   Postal Service accepted change-of-address orders from
                                   consumers without proof of identification. As a result of the
                                   fraudulent change-of-address, the physician’s identity was




2
    60 Minutes is a weekly CBS news show.



                                                       2
                                            Restricted Information
Postal Service’s Procedures to                                                                       OE-MA-03-005
 Validate Change-of-Address Orders



                                   stolen.3 Shortly after this incident, the Postal Service
                                   implemented procedures to validate change-of-address
                                   orders and minimize identity theft.4

                                   With the current process, the Postal Service sends a move
                                   validation letter to the customer after receiving a change-of-
                                   address order. If the customer for that address did not
                                   request the change, the letter includes a toll-free telephone
                                   number for the customer to call to report the discrepancy.

    Objective, Scope, and          The objective of our review was to determine the adequacy
    Methodology                    of the process used to validate change-of-address orders.
                                   To accomplish this objective, we interviewed headquarters
                                   officials, program staff, and representatives of foreign postal
                                   agencies. We reviewed Postal Service change-of-address
                                   policies and procedures and foreign postal agencies’
                                   procedures. We also reviewed and analyzed Postal Service
                                   fraudulent and incorrect change-of-address complaints and
                                   mail theft cases.

                                   We conducted this review from October 2002 through
                                   May 2003 in accordance with the President’s Council on
                                   Integrity and Efficiency, Quality Standards for Inspections.
                                   We discussed our conclusions and observations with
                                   appropriate management officials and included their
                                   comments, where appropriate.

    Prior Report                   The OIG published a report, Commercial Internet
    Coverage                       Companies Offering Change-of-Address Services (Report
                                   Number OE-MA-03-003, dated February 25, 2003). In this
                                   report, the OIG concluded the commercial companies were
                                   operating within Postal Service policy when submitting
                                   change-of-address orders to the Postal Service on behalf of
                                   consumers. Management agreed with our conclusion that it
                                   would be prudent for the Postal Service to explore
                                   leveraging commercial change-of-address services.

    Change-of-Address              While fraudulent changes-of-address occurred, the Postal
    Order Validation               Service’s process to validate change-of-address orders was
                                   adequate. The move validation letter helped the Postal
3
  Identity theft describes crimes in which someone wrongfully obtains and uses another person's personal data in a
way that involves fraud or deception, typically for economic gain.
4
  The Federal Trade Commission reported that one of the ways a person’s identity can be stolen is by theft of mail
through fraudulent changes-of-address.



                                                         3
                                              Restricted Information
Postal Service’s Procedures to                                                                           OE-MA-03-005
 Validate Change-of-Address Orders


                                    Service detect when fraudulent change-of-address orders
                                    were processed and helped prevent customers’ mail from
                                    being unlawfully forwarded. Specifically:

                                         •   Customers contacted the Postal Service in response
                                             to the letters when they did not submit the change-of-
                                             address order.

                                         •   If the change-of-address order was determined to be
                                             fraudulent, the Postal Service cancelled the order,
                                             thus preventing customers’ mail from being
                                             unlawfully diverted.

                                    In September 2001, the Postal Service implemented an
                                    Internet service, called MoversGuide.com, to provide
                                    customers with an alternative and more convenient
                                    method to submit change-of-address orders. The
                                    MoversGuide.com service includes an additional control to
                                    help validate the orders. Customers can change their
                                    address online by providing a valid credit card number, used
                                    to match their billing address with the address entered on
                                    the order.5 This online feature used in combination with the
                                    move validation letters should help the Postal Service
                                    further minimize fraudulent change-of-address orders.

    Identity Theft Incidents        Since fraudulent change-of-address orders enter the
    are Minimal                     mailstream, we were concerned about the opportunity for
                                    identity theft. Based on available data, we found the
                                    incidence of identity theft resulting from fraudulent change-
                                    of-address orders was minimal. Specifically, from
                                    November 1999 through September 2001, the Federal
                                    Trade Commission reported it received 19,241 identity theft
                                    complaints from victims who knew how their identity was
                                    stolen.6 Thirteen percent (2,577) of the complaints involved
                                    mail theft or a fraudulent change-of-address. However,
                                    even if the 2,577 identity theft complaints were the result of
                                    change-of-address fraud, this only represents approximately
                                    three one-thousandths of 1 percent of the 84 million
                                    change-of-address orders we estimated would have been
                                    submitted during the above period.7

5
  MoversGuide.com also allows customers to print out and submit hardcopy change-of-address orders to the Postal
Service similar to the current manual procedures.
6
  According to the Federal Trade Commission, most identity theft victims do not know how their identity was stolen.
7
  The report did not distinguish the complaints linked to mail theft from those linked to fraudulent change-of-address.



                                                           4
                                                Restricted Information
Postal Service’s Procedures to                                                                         OE-MA-03-005
 Validate Change-of-Address Orders



    Options to Consider to          During our review, we became aware of information we
    Enhance the Change-             believed could help the Postal Service further prevent
    of-Address Validation           fraudulent change-of-address orders.
    Process
                                    We learned some foreign postal agencies required
                                    customers to present at least one form of identification in
                                    person before they accepted and processed address
                                    change requests. However, we also learned the foreign
                                    agencies did not use controls similar to move validation
                                    letters to help detect the fraudulent requests; they reported
                                    some mail was still unlawfully diverted. Specifically:

                                        •    One of the foreign agencies’ officials we interviewed
                                             reported some fraudulent address changes were
                                             detected after the mail was forwarded. Customers
                                             reportedly detected some of the incidents after they
                                             stopped receiving their mail. Other incidents were
                                             reportedly detected as a result of police
                                             investigations into activities such as fraudulent use of
                                             credit cards or fraudulent negotiation of checks.

                                        •    The other agency reported an increase in fraudulent
                                             address changes through the use of fake
                                             identification cards.

                                    We assessed whether it would be prudent for the Postal
                                    Service to mandate in-person identification at post offices.
                                    We concluded while there may be some benefits, the
                                    potential drawbacks to customer service and increased
                                    costs to the Postal Service would outweigh the benefits.

                                    The potential benefits include:

                                        •    A reduction in fraudulent change-of-address orders
                                             accepted by the Postal Service. Requiring in-person
                                             identification could deter potential criminals from
                                             submitting fraudulent orders.

                                        •    Improved address quality, which could reduce mail-
                                             forwarding costs.8 Window clerks could help ensure
                                             the quality and accuracy of the information the
                                             customer submitted. This benefit also supports the
8
 Mail-forwarding costs the Postal Service approximately $438 million per year, which includes costs for carrier
preparation, clerk handling, and mail processing.



                                                          5
                                               Restricted Information
Postal Service’s Procedures to                                                                          OE-MA-03-005
 Validate Change-of-Address Orders


                                             Postal Service’s Transformation Plan strategy to
                                             improve the overall accuracy of address information.

                                    The potential drawbacks include:

                                         •   The negative impact on customer service. Requiring
                                             customers to submit identification in person would
                                             involve millions of customers going to post offices,
                                             which would be an inconvenience to the customer.
                                             In addition, the increased customer traffic at post
                                             offices would increase customer lines and customer
                                             wait times.

                                         •   Increased operating costs for the Postal Service to
                                             serve additional customers at the window. Since
                                             in-person identification would not likely eliminate the
                                             need for and the associated costs of move validation
                                             letters, in-person identification at post offices would
                                             involve additional costs to the Postal Service.9

                                    We also learned the Mailing Industry Task Force10 supports
                                    making Postal Service products and services easier to use
                                    through self-service technology. For example, the task
                                    force supports the evaluation of a “Change-of-Address by
                                    Phone” service. This service would use the Postal Service’s
                                    call centers to accept change-of-address orders via a
                                    toll-free number. If the Postal Service evaluates this
                                    service, it might want to explore controls to prevent the
                                    Postal Service from accepting fraudulent change-of-address
                                    orders through this service.11

    Conclusion                      We determined the process the Postal Service used to
                                    validate change-of-address orders was adequate. The
                                    move validation letters helped detect when fraudulent
                                    orders were processed. The letters also helped prevent
                                    customers’ mail from being unlawfully forwarded, mitigating
                                    identity theft.



9
  It costs the Postal Service approximately $13 million annually to produce and mail move validation letters. The
move validation letter costs include production, labor, printing, and postage. Additional costs would include additional
window clerk time and wages for this additional process and to service the increased customer traffic.
10
   The Mailing Industry Task Force was formed in March 2001 to analyze the state of the mailing industry and identify
opportunities for future growth. It is comprised of representatives from the Postal Service and private sector mailing
industry leaders.
11
   The OIG did not assess the viability of the “Change-of-Address by Phone” service.



                                                          6
                                               Restricted Information
Postal Service’s Procedures to                                                  OE-MA-03-005
 Validate Change-of-Address Orders



                              In addition, while no solution would be 100 percent effective
                              at preventing fraudulent change-of-address orders, the
                              Postal Service might want to explore controls in the
                              “Change-of-Address by Phone” service supported by the
                              Mailing Industry Task Force. However, we believe requiring
                              in-person identity verification could adversely impact
                              customers and could prove to be too costly.

 Management’s                 Management agreed with our conclusion. In addition,
 Comments                     management stated it would continue to use current
                              procedures to validate change-of-address orders as it plans
                              the implementation of a change-of-address by telephone
                              service.

 Evaluation of                Management’s comments are responsive to the information
 Management’s                 presented in this report.
 Comments
                              We appreciate the cooperation and courtesies provided by
                              your staff during our review. If you have any questions or
                              need additional information, please contact Robert J. Batta,
                              director, Accepting and Processing, at (703) 248-2100 or
                              me at (703) 248-2300.



                              Ronald D. Merryman
                              Deputy Assistant Inspector General
                               for Technology/Oversight

                              Attachment

                              cc: John M. Nolan
                                  John A. Rapp
                                  Richard J. Strasser, Jr.
                                  Nicholas F. Barranca
                                  Robert L. Otto
                                  Linda S. Stewart
                                  Janice E. Caldwell
                                  Susan M. Duchek




                                                 7
                                      Restricted Information
Postal Service’s Procedures to                                OE-MA-03-005
 Validate Change-of-Address Orders


                   APPENDIX. MANAGEMENT’S COMMENTS




                                                8
                                     Restricted Information
